TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Consistent and Effective Management
                       Involvement Is Needed in Resolving
                        Disagreements Over Audit Results



                                          August 7, 2009

                              Reference Number: 2009-30-103




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            August 7, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Consistent and Effective Management
                             Involvement Is Needed in Resolving Disagreements Over Audit
                             Results (Audit # 200830032)

 This report presents the results of our review to evaluate whether reviews conducted by
 group managers are effective tools in managing the outcome of field audits in the Small
 Business/Self-Employed (SB/SE) Division. The review was part of our Fiscal Year 2008 Annual
 Audit Plan under the major management challenge of Human Capital.

 Impact on the Taxpayer
 Consistent and effective managerial involvement in resolving disagreements over audit results
 can reduce additional costs to both taxpayers and the Internal Revenue Service (IRS). At a
 minimum, it should result in the taxpayers or their representatives having a clear understanding
 of the Federal Government’s position and, thereby, promote positive customer relations.

 Synopsis
 Group manager involvement in casework is considered a key to enhancing service and
 compliance because it makes taxpayer interactions less time consuming and less expensive
 especially when disputes surface in audits. The policy of the IRS is to resolve disagreements
 over audit results at the lowest practical level, and the initial step in the resolution process is for
 the group manager to contact the taxpayer or his or her representative to either resolve the
 disagreement or understand the basis for the disagreement. Besides promoting positive customer
 relations, such involvement is important from a revenue perspective. Our evaluation of IRS
                   Consistent and Effective Management Involvement Is Needed in
                            Resolving Disagreements Over Audit Results



Fiscal Year 2004 audit results found agreed audit assessments are far more likely to be collected
than those assessed by default and produced, on average, $642 more in collections.
To determine if group managers were involved in the resolution of audits, we reviewed 38 field
audits1 in which recommended additional taxes were assessed by default after examiners could
not obtain agreement to the proposed taxes owed. In 24 (63 percent) of the 38 cases, we found
that the level of managerial involvement was insufficient because the group manager did not
contact the taxpayer or representative, as required by the Internal Revenue Manual, in an attempt
to reach agreement with the taxpayer on the results of the audit.
The high number of cases in our sample without consistent and effective managerial involvement
to obtain agreement is a concern because we found the guidance for group managers to be
detailed and adequate. The group managers who participated in a survey we conducted
considered their involvement in audits critical to the success of audit outcomes, but indicated that
administrative demands on their time hamper their ability to be more involved in audits. While
administrative demands and other factors cited by group managers likely contributed to the
problem, another more fundamental cause may be the attitude of the group managers regarding
the value of attempting to contact taxpayers to reach agreement on audit results. In several cases,
we found that managers were sufficiently involved in other areas of the audit, such as reviewing
and approving penalties, but not in attempting to contact taxpayers or their representatives to
obtain agreement.
Both within and outside the Federal Government, a considerable body of research exists that
indicates employee involvement in solving problems related to their jobs can be an effective way
to identify fundamental causes of problems and effective solutions. We believe that the IRS
in-house assessments underway with the Workforce of Tomorrow Task Force and the SB/SE
Division Management Advisory Council may be a good way to ensure that the fundamental
causes of the problems discussed in this report are identified and resolved.

Recommendations
We recommended that the Director, Examination, SB/SE Division, reemphasize to group
managers the importance and need to be actively involved in securing agreement to the results of
audits when agreement could not be obtained by the examiners. We also recommended that the
Director, Examination, SB/SE Division, share the observations made in this report with the
SB/SE Division Management Advisory Council and the Workforce of Tomorrow Task Force for
use in their efforts to enhance the role of managers and to address administrative burden.



1
  Audits of individuals, partnerships, and corporations that occur either at the taxpayer’s place of business or through
interviews at an IRS office.
                                                                                                                      2
               Consistent and Effective Management Involvement Is Needed in
                        Resolving Disagreements Over Audit Results




Response
IRS management agreed with our recommendations. The Director, Examination Policy, SB/SE
Division, will publish an article in the Technical Digest, an internal publication, detailing the
importance of group manager involvement in securing agreement to audit results when an
agreement could not be obtained by the examiner. The importance of managerial involvement
will be also be reemphasized during a conference call with the Area Technical Analysts. In
addition, this report will be shared with the SB/SE Division Management Advisory Council and
the Human Capital Office, which assumed responsibility for the action items originating from the
Workforce of Tomorrow Task Force. Management’s complete response to the draft report is
included as Appendix VII.
Copies of this report are being sent to the IRS managers affected by the report recommendations.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




                                                                                               3
                     Consistent and Effective Management Involvement Is Needed in
                              Resolving Disagreements Over Audit Results




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Involvement by First-Line Managers Is Critical to the Successful
          Delivery of Vital Federal Government Programs and Services....................Page 3
          Group Managers Need to Be More Involved in Securing Agreement
          to Audit Results.............................................................................................Page 5
                    Recommendations 1 and 2: ................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Survey of Group Managers..................................................Page 13
          Appendix V – National Quality Review System - Standards and
          Attributes for Field Audit..............................................................................Page 21
          Appendix VI – National Quality Review System - Managerial
          Involvement Attribute...................................................................................Page 23
          Appendix VII – Management’s Response to the Draft Report.....................Page 25
        Consistent and Effective Management Involvement Is Needed in
                 Resolving Disagreements Over Audit Results




                       Abbreviations

EQRS             Embedded Quality Review System
IRS              Internal Revenue Service
NQRS             National Quality Review System
SB/SE            Small Business/Self-Employed
                  Consistent and Effective Management Involvement Is Needed in
                           Resolving Disagreements Over Audit Results




                                            Background

Tax return audits range from reviewing tax returns and resolving questionable items by
corresponding with taxpayers through the mail to conducting a detailed, field audit of a
taxpayer’s financial records at his or her place of business. In contrast to the less expensive and
more automated correspondence audit process, field audits are more labor intensive and
conducted by examiners who are trained to deal with and focus on more complex tax returns and
issues.
Typically, a field audit begins with the examiner explaining to the taxpayer or his or her
representative the audit process and requesting information to support items on the tax return,
which the examiner has identified for audit. If the items can be resolved by the information
provided, the audit is closed without any tax changes. If not, the taxpayer or the representative is
requested to provide more information or be informed of a recommended tax change. At this
point, the taxpayer can agree with the examiner, provide the examiner with clarifying
information, participate in a discussion with the examiner’s first-line manager (called a group
manager), or appeal the decision administratively to the Internal Revenue Service (IRS) Office of
Appeals. If an agreement cannot be reached at the group level and the decision is not appealed
administratively, the IRS will issue a Notice of Deficiency1 and the taxpayer may petition the
Tax Court to contest the proposed assessment. If a taxpayer does not petition the Tax Court, the
IRS will assess the recommended tax changes by default.
Group managers are responsible for ensuring audits meet quality standards and are conducted
timely. This is a significant role from both a taxpayer perspective and a revenue perspective
because the IRS audits more than a million tax returns each year and identifies billions of dollars
in additional tax revenue. To assist IRS group managers in meeting their responsibilities, the
Internal Revenue Manual recommends that they use a variety of processes, such as reviews of
ongoing audits, closed audits, overall inventory, and technical time reports, as well as on-the-job
visits and ongoing observations and discussions with examiners.
To facilitate and document group managers’ reviews, the IRS introduced the Embedded Quality
Review System (EQRS) in March 2007. The EQRS is an online system designed, in part, to
align individual performance with organizational goals by linking quality attributes to
examiners’ performance plans. The system can generate individual reports that group managers
use to provide examiners guidance, direction, and performance feedback. The IRS views the
EQRS as one way of reducing administrative burden because the system standardizes the format


1
  A legal document sent to a taxpayer which explains the proposed changes and the amount of the proposed tax
increase.
                                                                                                         Page 1
                  Consistent and Effective Management Involvement Is Needed in
                           Resolving Disagreements Over Audit Results



for the various types of reviews and takes the guesswork out of linking the attributes with
examiners’ critical job elements.
Mid-level managers also use the EQRS to monitor the level and adequacy of group manager
involvement in audits. They may also evaluate ongoing work in open audits during operational
reviews. Operational reviews are required to be performed at least annually to ensure that work
is being done in conformance with IRS policies and procedures.
After an audit closes, National Quality Review System (NQRS) reviewers may evaluate the audit
case file to determine whether the examiner complied with quality attributes and assess the level
of managerial involvement. Besides serving as a quality control, the purpose of the NQRS is to
collect information about the audit process, communicate areas of concern to top management,
identify potential training needs, and improve work processes. See Appendix V for more details
on the NQRS standards and associated attributes.
This review was performed in the Small Business/Self-Employed (SB/SE) Division Examination
function in New Carrollton, Maryland, and in Campus2 Compliance Services at the Memphis
Campus in Memphis, Tennessee, during the period May 2008 through March 2009. Except for
auditing IRS databases to validate the accuracy and reliability of the information, we conducted
this performance audit in accordance with generally accepted government audit standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




2
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 2
                    Consistent and Effective Management Involvement Is Needed in
                             Resolving Disagreements Over Audit Results




                                       Results of Review

Involvement by First-Line Managers Is Critical to the Successful
Delivery of Vital Federal Government Programs and Services
First-line managers have an extremely important role in the Federal Government because they
are responsible for the day-to-day implementation of the policies, procedures, and practices that
deliver vital programs and services to the public. Ensuring the successful delivery of such
programs on a day-to-day basis is no easy task and is becoming even more challenging.
According to a report issued by the Office of Personnel Management, first-line managers are
“supervising greater numbers of employees, using broader delegations of authority, helping more
employees balance work and family demands, [and] responding to increasing demands for
customer service…”3 Moreover, first-line managers throughout the Federal Government are also
dealing with the demands and burdens of supervising an increasingly inexperienced workforce
due to the large numbers of experienced personnel retiring.
The IRS Organization Blueprint 20004 for modernization helped lay the foundation to focus
efforts on reducing the administrative demands on group managers so they could have more time
for involvement in audits and other compliance casework. Increasing managerial involvement in
casework is considered a key to enhancing service and compliance because it makes taxpayer
interactions less time consuming and less expensive especially when disputes surface in audits.
Since Fiscal Year 2000, the IRS continues to make progress towards better positioning its group
managers to take a greater role in the audit process. A significant step was establishing four
operating divisions to serve and ensure the compliance of specific taxpayer segments. By
grouping taxpayers together, the IRS envisions that group managers and the examiners they
supervise will have less difficulty focusing on issues and problems unique to the taxpayers they
serve. Other steps taken to reduce administrative burden include the reinvigorated Management
Advisory Councils, numerous pro-forma audit checklists, an online human resource system, and
computer-based training packages. In addition, top IRS executives have formed, and are leading,
a cross functional Workforce of Tomorrow Task Force that is charged with dealing with a host of
human capital issues that range from streamlining hiring practices to enhancing the role of
managers by addressing the competing demands on the group managers’ time and attention.
The continuing emphasis on the importance of managerial involvement in the audit process is
likely a significant contributing factor to a favorable trend NQRS reviewers are finding in their


3
    Report of a Special Study – Supervisors in the Federal Government: A Wake-Up Call (January 2001).
4
    IRS Document 11052 (Rev 4-2000).
                                                                                                        Page 3
                                      Consistent and Effective Management Involvement Is Needed in
                                               Resolving Disagreements Over Audit Results



evaluations of closed audits in the SB/SE Division. As Figure 1 illustrates, the percentage of
audits where the level of group manager involvement was found to be appropriate by NQRS
reviewers increased from 76.3 percent for the 12 months ending September 2007 to 81.3 percent
for the 12 months ending March 31, 2009.
Figure 1: Percentage of Audits in Which the Level of Group Manager Involvement
            Was Appropriate – September 2007 through March 2009

                       82.0

                       81.0
                                                                                                      81.3
                       80.0
                                                                                             80.0
                       79.0
       Quality Score




                                                                                     79.5
                       78.0
                                                                     78.4
                       77.0
                                                      77.0
                       76.0
                               76.3         76.4
                       75.0

                       74.0

                       73.0
                              Sep-07       Dec-07    Mar-08        Jun-08          Sep-08   Dec-08   Mar-09

                                                        Ending Date of 12-Month Period


Source: Treasury Inspector General for Tax Administration analysis of IRS NQRS results for SB/SE Division Field
Audits for Fiscal Years 2007, 2008, and 2009.

Since managers are not expected, nor required, to be involved in every audit, it is important to
recognize what the NQRS percentage in Figure 1 does and does not represent. In general, the
percentage measures the portion of audits selected for quality review in which the level of
managerial involvement was deemed appropriate compared with the total number of sampled
cases that were reviewed. The percentage does not measure the level of group manager
involvement by specific types of case closings, such as those in which taxpayers agreed or did
not agree with the examiners’ findings. More details about NQRS evaluations of managerial
involvement in the audit process are included in Appendix VI.
While the NQRS shows that the overall level of managerial involvement in SB/SE Division
audits is trending favorably, our evaluation of 38 closed field audits suggests that group
managers need to be more involved in attempting to obtain agreement in audits. Group
managers who participated in our survey5 cited various factors that could have contributed to the
absence of consistent and effective managerial involvement found in the cases reviewed. The


5
    See Appendix IV for the detailed results of our survey.
                                                                                                        Page 4
                  Consistent and Effective Management Involvement Is Needed in
                           Resolving Disagreements Over Audit Results



IRS may find our survey results and other observations made in this report useful in its
continuing efforts to better position group managers to take a greater role in the audit process.

Group Managers Need to Be More Involved in Securing Agreement
to Audit Results
The policy of the IRS is to resolve disagreement in audits at the lowest practical level, and the
initial step in the resolution process is for the group manager to contact the taxpayer to either
resolve the disagreement or understand the basis for the disagreement. This step is critical
because managerial involvement in disagreements can result in the case being closed agreed or
partially agreed, which can reduce additional costs to both the IRS and taxpayers by avoiding a
protracted dispute resolution process.
When a taxpayer agrees with the results of an audit, there is an additional benefit of enhancing
tax revenues because agreed audit assessments are far more likely to be collected than those
assessed by default. To illustrate, we evaluated statistically valid samples of Fiscal Year 2004
agreed audits and audits where the taxes were assessed by default after examiners could not
obtain agreement. As summarized in Figure 2, our evaluation found that as of February 2009,
most (94 percent) of the additional taxes assessed in agreed audits had been collected while only
about 27 percent was collected from the taxes assessed by default. We also found that, on
average, the agreed audits produced $642 more in collections than the audits where the taxes
were assessed by default.
    Figure 2: Comparison of Audit Assessments Collected as of February 2009
    Type of          Returns        Total        Amount Collected       Percent          Average Amount
   Assessment        Audited     Assessments                            Collected           Collected
     Agreed             59         $585,850           $550,666             94%                $9,333

     Default           382        $12,418,135        $3,320,008            27%                $8,691

Source: Treasury Inspector General for Tax Administration analysis of random samples of agreed and defaulted
audit cases.

To determine if group managers were involved in cases in which the examiner could not obtain
agreement, we reviewed 38 field audits that were closed between October 2007 and March 2008
after the taxpayer failed to respond to requests from the IRS for agreement. We determined that
in 24 (63 percent) of the 38 audits, the level of managerial involvement was insufficient because
the group manager did not contact the taxpayer or representative, as required by the Internal
Revenue Manual, in an attempt to reach agreement with the taxpayer on the results of the audit.
Overall, the high number of cases in our sample without appropriate and effective managerial
involvement is a concern because we found the guidance for group managers to be detailed and
adequate. Given the adequacy of the guidance and feedback from the NQRS, we believe there is
no easy solution to enhancing the consistency and effectiveness of managerial involvement in
                                                                                                       Page 5
                Consistent and Effective Management Involvement Is Needed in
                         Resolving Disagreements Over Audit Results



audits even though the group managers who participated in our survey provided several
explanations for the problem.
Our survey results showed that, although the group managers considered their involvement in
audits critical to the success of the results, most indicated that the amount of administrative
demands on their time hamper their ability to be more involved in the audits. In addition,
35 percent of the group managers stated that they were dissatisfied with the EQRS, and
85 percent of the group managers stated that the system needs improvement. Among others,
group managers cited the need to:
       ¾       Make the EQRS portable by implementing off-line use.
       ¾       Integrate the EQRS with Windows-based applications, like Microsoft Word and
               Excel applications.
       ¾       Allow comments for positive feedback.
       ¾       Improve the reports that are generated by the EQRS.
       ¾       Add more space for narrative summaries and comments.
While we did not conduct an indepth review of the EQRS, exploring the improvements cited by
the group managers and minimizing the potential managerial burden associated with
documenting both case files and the EQRS would be worthwhile. According to an IRS official,
NQRS reviewers do not have access to EQRS data because they contain feedback on examiner
performance and sharing such information would violate the agreement between IRS
management and the National Treasury Employee Union. NQRS reviewers instead rely solely
on the paper documentation contained in case files to make their evaluations about the adequacy
of managerial involvement in areas considered critical to the examination process.
Because the areas are considered critical, the Internal Revenue Manual recommends that group
managers address many of the same areas in the direction and guidance they provide to
examiners during onsite visits and case reviews. Since onsite visits and case reviews are
required to be documented in the EQRS where they can be accessed and evaluated by mid-level
managers, group managers may have little choice in some instances except to document the
guidance and directions provided to examiners in both case files and the EQRS. Figure 3
outlines some of the areas where opportunities may exist to reduce the same or similar
documentation required in both case files and the EQRS.




                                                                                            Page 6
                    Consistent and Effective Management Involvement Is Needed in
                             Resolving Disagreements Over Audit Results



  Figure 3: Some of the Critical Areas in the Audit Process Where Opportunities
        May Exist to Reduce Documenting Both Case Files and the EQRS
                                                          Planning
 Meaningful review and concurrence of audit plans for examiners below the journey level
                                             Investigative/Audit Techniques
 Meaningful review and approval of penalties before they are recommended for assessment
 Meaningful review and concurrence for not asserting the substantial understatement penalty
 Development of an action plan to identify indicators when fraud is suspected
                                        Customer Relations and Professionalism
 Development of an action plan to address taxpayer procrastination
 Development of an action plan to address audits where there is no activity for extended periods
 Development of an action plan to address audits opened for an extended period of time
 Meaningful review of tax law interpretation and application for issues in which the taxpayer and the examiner disagreed
 Meaningful actions taken to resolve issues in which the taxpayer and the examiner disagreed

Source: Treasury Inspector General for Tax Administration review of the Internal Revenue Manual, quality
attributes, and SB/SE Division Examination function documents.

Although administrative demands and concerns with the EQRS are likely contributing to the
absence of consistent and effective managerial involvement in contacting taxpayers and
obtaining agreement to audit results, another more fundamental cause may be the attitude of the
group managers regarding the value of attempting to contact taxpayers to reach agreement on
audit results. In several cases, we found managers sufficiently involved in other areas of the
audit, such as reviewing and approving penalties, but not in attempting to contact taxpayers to
secure agreement to audit results when agreement could not be obtained by the examiner.
Both within and outside the Federal Government, a considerable body of research exists that
indicates employee involvement in solving problems related to their jobs can be an effective way
to identify fundamental causes of problems and effective solutions. Accordingly, the in-house
assessments underway with the IRS Workforce of Tomorrow Task Force and the SB/SE
Division Management Advisory Council may be a good way to ensure that the fundamental
causes of the problems discussed in this report are identified and resolved.
Specifically, the Enhancing the Role of Managers subgroup of the IRS Workforce of Tomorrow
Task Force determined that managers want to spend more time on people development, but
many are overwhelmed by administrative burden. An early approved recommendation of the
subgroup is the streamlining of mandatory briefings, which group managers cited as an
administrative burden in our survey and in a survey conducted by the IRS Workforce of
Tomorrow Task Force. The SB/SE Division Management Advisory Council also considers
mandatory employee briefings a priority topic. Other top-priority topics include the EQRS, the
leadership succession review process, and the lack of manager autonomy and empowerment. It
should be noted that of the 127 group managers we surveyed, only 31 percent were aware of any

                                                                                                                       Page 7
                Consistent and Effective Management Involvement Is Needed in
                         Resolving Disagreements Over Audit Results



initiatives to minimize the barriers that prevent them from being sufficiently involved in cases
assigned to examiners in their groups.

Recommendations
The Director, Examination, SB/SE Division, should:
Recommendation 1: Reemphasize in future communications with group managers the
importance and need to be actively involved in securing agreement to the results of audits when
agreement cannot be obtained by examiners.
       Management’s Response: IRS management agreed with our recommendation and
       will 1) publish an article in the Technical Digest, an internal publication, detailing the
       importance of group manager involvement in securing agreement to audit results when an
       agreement could not be obtained by the examiner, and 2) reemphasize the importance of
       managerial involvement during a conference call with the Area Technical Analysts.
Recommendation 2: Share the observations made in this report with the SB/SE Division
Management Advisory Council and the Workforce of Tomorrow Task Force for use in their
continuing efforts to enhance the role of managers and address administrative burden.
       Management’s Response: IRS management agreed with our recommendation and
       will share this report with the SB/SE Division Management Advisory Council and extend
       an invitation to the Treasury Inspector General for Tax Administration to discuss our
       audit findings at a future Management Advisory Council meeting. Management will also
       share this report with the Human Capital Office, which assumed responsibility for the
       action items originating from the Workforce of Tomorrow Task Force.




                                                                                            Page 8
                   Consistent and Effective Management Involvement Is Needed in
                            Resolving Disagreements Over Audit Results



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether reviews conducted by group
managers are effective tools in managing the outcomes of field audits in the SB/SE Division. To
meet our objective, we relied upon IRS internal management reports and databases. We did not
establish the reliability of these data because extensive data validation tests were outside the
scope of this audit and would have required a significant amount of time. To accomplish our
objective, we:
I.       Reviewed IRS policies and procedures to determine the level of involvement expected of
         group managers responsible for SB/SE Division audit cases.
II.      Evaluated results from the SB/SE Division NQRS to determine whether managerial
         involvement in cases was identified as a problem and whether required corrective actions
         were taken.
III.     From a June 26, 2008, inventory listing, we selected and reviewed 38 cases from the
         population of 217 defaulted1 audit cases closed between October 2007 and March 2008.
         A judgmental sample was used because a statistical sample to project results would have
         required extensive resources and time.
         A. Evaluated the sufficiency of managerial involvement in the audits and documented in
            the case files.
         B. Reviewed EQRS documentation for cases in our sample to determine if reviews were
            completed by the managers but not documented in the audit case file.
         C. Surveyed the managers responsible for the 38 cases in our sample.
IV.      Surveyed 1272 SB/SE Division group managers who were responsible for managing
         examiners to determine the factors that hinder their involvement in audits (see
         Appendix IV for our survey questions and results).
         A. Judgmentally selected the 30 group managers who were responsible for the closed
            cases in step III.


1
  In these audits, taxpayers did not agree with the results of the audits. If an agreement cannot be reached at the
group level and the decision is not appealed administratively, the taxpayer may petition the Tax Court to contest the
proposed assessment. If a taxpayer does not petition the Tax Court, the IRS will assess the recommended tax
changes by default.
2
  The 127 includes 30 managers responsible for the cases reviewed in Step III.
                                                                                                             Page 9
                  Consistent and Effective Management Involvement Is Needed in
                           Resolving Disagreements Over Audit Results



        B. From the population of 432 group managers, randomly selected 115 group managers
           (97 group managers completed the survey).
V.      Evaluated the status and potential impact of initiatives to reduce administrative burden
        including work being conducted by the Workforce of Tomorrow Task Force and the
        SB/SE Division Management Advisory Council.
VI.     From a population of 32,496 agreed cases, selected a statistically valid sample
        (95 percent confidence level, ± 5 percent precision level) of 59 cases closed in Fiscal
        Year 2004 from the Audit Information Management System3 and determined the total
        dollars collected as of February 2009.
VII.    From a population of 5,352 defaulted cases, selected a statistically valid sample
        (95 percent confidence level, ± 5 percent precision level) of 382 cases closed in Fiscal
        Year 2004 from the Audit Information Management System and determined the total
        dollars collected as of February 2009.




3
 A computer system used to control returns, input assessments and adjustments to the Master File, and provide
management reports. The Master File is the IRS database that stores various types of taxpayer account information.
                                                                                                         Page 10
              Consistent and Effective Management Involvement Is Needed in
                       Resolving Disagreements Over Audit Results



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Lisa Stoy, Audit Manager
Joan Floyd, Lead Auditor
Craig Pelletier, Senior Auditor
Ali Vaezazizi, Auditor




                                                                                      Page 11
              Consistent and Effective Management Involvement Is Needed in
                       Resolving Disagreements Over Audit Results



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Examination Policy, Small Business/Self-Employed Division SE:S:E:EP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 12
               Consistent and Effective Management Involvement Is Needed in
                        Resolving Disagreements Over Audit Results



                                                                                Appendix IV

                        Survey of Group Managers

The following survey questions were included in both the telephone and online surveys that we
conducted. Notification about the telephone survey was emailed to 30 group managers who
supervised examiners from October 2007 through March 2008. Notification about the online
survey was emailed to 115 group managers who supervised examiners as of November 2008.
The email notifications for both types of surveys were similar. Telephone surveys were
completed by December 3, 2008, and online surveys were completed by February 23, 2009. A
total of 127 group managers participated in the survey.

Email Notification
The Treasury Inspector General for Tax Administration, Office of Audit, is conducting an
evaluation of managerial involvement in SB/SE Division field audits. As part of the evaluation,
the Treasury Inspector General for Tax Administration is conducting a survey of a sample of
group managers who supervise examiners. You have been selected to participate in the survey.
Treasury Inspector General for Tax Administration and SB/SE Division Examination function
executives appreciate your participation in the survey because it will help to identify areas in
which the amount of paperwork and other administrative burden may hamper your ability to take
full advantage of opportunities to be involved in the day-to-day, case-related activities of your
examiners. In addition, it will help identify the challenges the SB/SE Division faces in dealing
with the high number of newly hired examiners. According to the Deputy Commissioner, SB/SE
Division, approximately 65 percent of SB/SE Division examiners have less than 4 years of
experience.
The Treasury Inspector General for Tax Administration estimates that the survey will take about
20 minutes to complete. The survey is confidential. Your responses will be combined with
those of other respondents and will be reported only in summary form. The Treasury Inspector
General for Tax Administration will not identify the specific respondents who participated in the
survey either in their report or to other IRS officials.
Thank you!




                                                                                         Page 13
             Consistent and Effective Management Involvement Is Needed in
                      Resolving Disagreements Over Audit Results



Survey Questions

Questions about Managerial Involvement and the Types of Reviews Conducted by
Group Managers
1.   To what extent do you consider managerial involvement in the audit process critical
     for ensuring quality audits are conducted on a timely basis?
     __60_ To a very great extent         (47%)
     __61_ To a great extent              (48%)
     ___6_ To a moderate extent           ( 5%)
     ___0_ To some extent                 ( 0%)
     ___0_ To little or no extent         ( 0%)
     ___0_ Do not know                    ( 0%)
2.   Taking everything into consideration, how would you rate the amount of time you
     have available to be actively involved in the audits conducted by the examiners in
     your group?
     ___3_ More than enough time                  ( 2%)
     __35_ Just about the right amount of time    (28%)
     __89_ Too little time                        (70%)
3.   What types of reviews do you conduct to ensure your involvement in the audit
     process? (Please indicate all that apply.)
     _120_ Workload reviews                       (94%)
     _115_ In-process case reviews                (91%)
     _120_ On-the-job visits                      (94%)
     _116_ Reviews of closed cases                (91%)
     __38_ Workpaper reviews                      (30%)
     _120_ Reviews of Technical Time Reports (94%)
     __41_ Other (Please describe)                (32%)
     Other types of reviews:
     •   Periodic (weekly or monthly) reviews of cases meeting the following criteria:


                                                                                         Page 14
                    Consistent and Effective Management Involvement Is Needed in
                             Resolving Disagreements Over Audit Results



                   o Open for a long period of time.
                   o Long periods of inactivity.
                   o Statute concerns.
           •   Concurrence meetings.
           •   Decision point discussions.
           •   Review of examiners’ planning calendars.
           •   Informal discussions with examiners about specific case-related issues.
4.         Which of the following do you find to be the most effective for ensuring quality
           audits are completed in a timely manner? (Please check one.)1
           __30_ Conducting workload reviews                                   (24%)
           __17_ Conducting in-process case reviews                            (13%)
           __18_ Conducting concurrence meetings                               (14%)
           __23_ Conducting on-the-job visits                                  (18%)
           ___4_ Attending case closing conferences                            ( 3%)
           ___1_ Conducting managerial conferences on Appeals Cases            ( 1%)
           ___1_ Reviewing closed cases                                        ( 1%)
           __31_ Reviewing Technical Time Reports                              (24%)
           __11_ Other (Please describe)                                       ( 9%)
           Other methods for ensuring quality audits are completed timely:
           Monthly discussions with examiners to discuss the status and direction of their audits.
5.         Does your Area’s policy regarding the amount of interim evaluative feedback differ
           depending on the grade level of the agent?
           __55_ Yes                (43%)
           __72_ No                 (57%)
6.         Please describe your Area’s policy regarding interim evaluative feedback as it
           pertains to:
           a. Workload reviews: Most Areas required one workload review per examiner per year.

1
    Some respondents selected more than one choice.
                                                                                              Page 15
                  Consistent and Effective Management Involvement Is Needed in
                           Resolving Disagreements Over Audit Results



        b. In-process case reviews: Varied.2
        c. On-the-job visits: Varied (see footnote 2).
        d. Reviewing closed cases: Varied (see footnote 2).
        e. Reviewing Technical Time Reports: Varied.3
7.      When discussing a case with an agent or conducting a case review, do you document
        your activity within the audit file?
        __95_ Yes (Go to question 8.)                         (75%)
        __32_ No (Go to question 9.)                         (25%)
8.      How do you document your involvement or case review within the audit file?4
        __82_ a. Form 9984                                                     (65%)
        __56_ b. Manager’s Concurrence Meeting Lead Sheet                      (44%)
        __23_ c. Somewhere else in the case file                               (18%)
        __13_ d. Other (Please describe):                                      (10%)
        Other ways of documenting involvement:
        •    Group managers rely on examiners to document involvement in the case files.
        •    Handwritten notes on a separate activity record that is incorporated into the case file
             when the case is closed.

Questions Pertaining to the Embedded Quality Review System
9.      To what extent are you familiar with the EQRS?
        __76_ Very familiar                                  (60%)
        __42_ More familiar than unfamiliar                  (33%)
        ___8 Neither familiar nor unfamiliar                 ( 6%)


2
  The Areas varied in the requirements for in-process case reviews, on-the-job visits, closed case reviews, and
reviews of Technical Time Reports. For example, most Areas required that, in addition to a workload review, the
group manager conduct a certain number (two or three) of reviews for each examiner. The group managers could
decide the type of reviews they wanted to conduct from the following: in-process case reviews, on-the-job visits,
closed case reviews, or reviews of Technical Time Reports.
3
  Some of the Areas required periodic (monthly, bimonthly, or quarterly) reviews of Technical Time Reports. One
Area required one review of Technical Time Reports per examiner per year.
4
  Some respondents selected more than one choice.
                                                                                                         Page 16
              Consistent and Effective Management Involvement Is Needed in
                       Resolving Disagreements Over Audit Results



      ___1_ More unfamiliar than familiar           ( 1%)
      ___0_ Very unfamiliar                         ( 0%)
      ___0_ No basis to judge                       ( 0%)
10.   Overall, how satisfied or dissatisfied are you with the EQRS?
      ___9_ Very satisfied                          ( 7%)
      __46_ More satisfied than dissatisfied        (36%)
      __27_ Neither satisfied nor dissatisfied      (22%)
      __33_ More dissatisfied than satisfied        (26%)
      __12_ Very dissatisfied                       ( 9%)
      ___0_ No basis to judge                       ( 0%)
11.   Overall, how satisfied or dissatisfied are you with the training you received for using
      the EQRS?
      __25_ Very satisfied                          (20%)
      __45_ More satisfied than dissatisfied        (35%)
      __32_ Neither satisfied nor dissatisfied      (25%)
      __11_ More dissatisfied than satisfied        ( 9%)
      ___9_ Very dissatisfied                       ( 7%)
      ___5_ No basis to judge                       ( 4%)
12.   To what extent, if at all, could the EQRS be improved?
      __17_ To a very great extent          (13%)
      __37_ To a great extent               (29%)
      __39_ To a moderate extent            (31%)
      __15_ To some extent                  (12%)
      ___6_ To little or no extent          ( 5%)
      __13_ Do not know                     (10%)
      Suggestions for improving the EQRS:
      •   Make the EQRS less burdensome and more user friendly.
      •   Make the EQRS portable by implementing offline use.
                                                                                     Page 17
                    Consistent and Effective Management Involvement Is Needed in
                             Resolving Disagreements Over Audit Results



           •   Incorporate a spellchecker and the capability to copy and paste within the EQRS.
           •   Fully integrate the EQRS with Windows-based applications, like Word and Excel.
           •   Allow comments for attributes that are rated “not applicable.”
           •   Allow comments for positive feedback.
           •   Improve navigation.
           •   Make the menus and selections for ad hoc report functions easier to use.
           •   Improve navigation and printing.
           •   Improve the reports that are generated by the EQRS.
           •   Add attributes for some of the critical job elements, which have one or only a few
               attributes.
           •   Reduce attributes; there are too many and they are repetitive.
           •   More space is needed for narrative summaries and comments.
           •   Build the job aid into the EQRS so that definitions and examples are readily
               available.

Questions Related to Administrative or Managerial Burden
13.        To what extent does the amount of administrative demands on your time hamper
           your ability to be more involved in the audits assigned to your group?
           __32_ To a very great extent                (25%)
           __57_ To a great extent                     (45%)
           __27_ To a moderate extent                  (21%)
           __10_ To some extent                        ( 8%)
           ___0_ To little or no extent                ( 0%)
           ___1_ Do not know                           ( 1%)
14.        Which of the following administrative demands hamper your ability to be more
           involved in the audits your group is conducting? (Please select the top two.)5
           __56_ Responding to requests to prepare ad hoc reports                     (44%)


5
    Some respondents selected more than two choices.
                                                                                              Page 18
              Consistent and Effective Management Involvement Is Needed in
                       Resolving Disagreements Over Audit Results



      __12_ Approving leave and other timekeeping responsibilities           ( 9%)
      __73_ Responding to emails and/or phone calls from superiors           (57%)
      __55_ Completing evaluations and other personnel transactions          (43%)
      __22_ Serving as Commissioner’s Representative for my post-of-duty     (17%)
      ___2_ Do not know                                                      ( 2%)
      __48_ Other (Please describe.)                                         (38%)
      Other demands that hamper a group manager’s ability to be more involved in audit
      cases:
      •   Addressing performance or conduct issues.
      •   Mandatory briefings.
      •   Emails from individuals other than superiors.
      •   Requests from superiors or others with quick deadlines.
      •   Monthly briefings for the Territory Manager.
      •   Labor relation and union issues.
15.   Are you aware of any initiatives to minimize the barriers that prevent you from
      being sufficiently involved in cases assigned to examiners in your group?
      __40_ Yes (Please describe.) (Go to question 16.)             (31%)
      __87_ No (Go to question 17.)                                 (69%)
16.   To what extent do you believe that these initiatives will minimize the barriers that
      prevent you from being sufficiently involved in cases assigned to examiners in your
      group?
      ___0_ To a very great extent           ( 0%)
      ___2_ To a great extent                ( 5%)
      __ 9_ To a moderate extent             (22%)
      __ 9_ To some extent                   (22%)
      __17_ To little or no extent           (43%)
      ___3_ Do not know                      ( 8%)
17.   Do you have any suggestions to reduce administrative or managerial burden on
      SB/SE Division audit group managers?

                                                                                     Page 19
              Consistent and Effective Management Involvement Is Needed in
                       Resolving Disagreements Over Audit Results



      __78_ Yes (Please describe.)           (61%)
      __49_ No                               (39%)
      Suggestions for reducing administrative or managerial burden:
      •   Improve the process for hiring clerical support.
      •   Increase the grade level for the group secretary.
      •   Reduce the amount of written feedback that group managers are required to complete
          each year for each examiner.
      •   Allow the group managers discretion in the minimum amount of required written
          feedback.
      •   Let managers manage their groups.
      •   Reduce the number of reports required by Territory Managers and Area Directors.
      •   Keep the number or examiners per group at 10 or less.
      •   Eliminate the requirement for group manager concurrence meetings.
      •   Consider adding an assistant group manager or administrative assistant who would
          help the group manager by conducting mandatory briefings, monitoring travel
          authorizations, and other administrative duties.
      •   Reduce emails.
      •   Reduce short turnarounds on emails requiring action or response.
18.   Is there anything else that you would like to add?
      __26_ Yes (Please describe.)           (20%)
      _101_ No                               (80%)
      Additional comments:
      •   Examiners are not being trained properly. Improvements are needed in the training
          process.
      •   Create a resource web site for examiners – a “one-stop shopping” place which
          examiners can access to quickly find answers to their questions.
      •   There are not enough hours in the day to do a group manager’s job in a quality
          manner.
      •   Assign cases to examiners based on potential, not on a first-in, first-out basis.

                                                                                              Page 20
                 Consistent and Effective Management Involvement Is Needed in
                          Resolving Disagreements Over Audit Results



                                                                                                 Appendix V

    National Quality Review System - Standards and
               Attributes for Field Audit

NQRS reviewers use the quality attributes listed below in evaluating statistically valid samples
of closed field audit cases. Once evaluations are completed, the results are input into the NQRS
to communicate areas of concern to top management, identify potential training needs, and
improve work processes.


 Quality Standard                     Attribute                                Brief Description

      Planning          • Pre-Plan Activity                   • Is the employee’s pre-plan activity appropriate?

                        • Information Document Request        • Did the employee prepare the appropriate
                                                                Information Document Requests?

                        • Large, Unusual, and Questionable    • Did the employee properly consider large, unusual,
                          (other than income)                   and questionable items (other than income) on the
                                                                primary return?

                        • Prior/Subsequent Year and Related   • Did the employee include prior/subsequent and
                          Returns                               related returns when warranted?

                        • Verify Full Compliance              • Did the employee verify full compliance through
                                                                appropriate research or other means such as
                                                                inspection, inquiry, etc. as appropriate?

       Income           • Exam Income Determination           • Did the employee use appropriate techniques to
    Determination                                               determine income?

  Investigative/Audit   • Audit/Compliance Interview          • Did the employee conduct adequate interviews?
     Techniques
                        • Interpreted/Applied Tax Law         • Did the employee interpret and apply the tax law
                          Correctly                             correctly?

                                                              • Did the employee properly pursue and develop
                        • Fraud Determination                   indicators of fraud?
                        • Civil Penalty Determination         • Did the employee make correct determinations and
                                                                computations for civil penalties?




                                                                                                            Page 21
                 Consistent and Effective Management Involvement Is Needed in
                          Resolving Disagreements Over Audit Results




Quality Standard                 Attribute Name                              Brief Description

    Timeliness        • Time Spent on Audit/Compliance      • Is the time spent on the audit commensurate with
                        Review                                the complexity of the issues?

                      • Efficient Resolution and Internal   • Were Internal Revenue Manual timeframes met and
                        Revenue Timeframes Met                the case actions taken done in the most efficient
                                                              manner that did not result in any unnecessary delay
                                                              to resolve the case?

Customer Relations    • Clear/Professional Written          • Were all correspondence and documentation
and Professionalism     Communication                         businesslike and professional in tone, appearance,
                                                              and content?

                      • Taxpayer/Power of Attorney Kept     • Did the employee keep the Taxpayer/Power of
                        Apprised                              Attorney informed throughout the audit process?

                      • Taxpayer Rights                     • Did the employee advise the Taxpayer/Power of
                                                              Attorney of all rights?

                      • Confidentiality                     • Did the employee protect the confidentiality of the
                                                              taxpayer and/or return information?

                      • Solicit Payment                     • Did the employee solicit payment and/or consider
                                                              an installment agreement?

                      • Managerial Involvement              • Was the level of managerial involvement
                                                              appropriate? (See Appendix VI for details.)

Documentation and     • Employee Case/History               • Did the employee complete the required case
    Reports             Documentation                         history/case documentation per Internal Revenue
                                                              Manual guidelines including accurate, clear, and
                                                              concise preparation of internal documents?

                      • Workpapers Support Conclusion       • Did the employee appropriately prepare workpapers
                                                              to support the conclusion of the case?
                      • Report Writing                      • Did the employee follow applicable report writing
                                                              procedures?
                      • Tax Computation                     • Did the employee correctly determine and compute
                                                              the proposed or actual assessment(s) and/or
                                                              abatement(s) of tax as required?




                                                                                                            Page 22
               Consistent and Effective Management Involvement Is Needed in
                        Resolving Disagreements Over Audit Results



                                                                                 Appendix VI

                  National Quality Review System –
                  Managerial Involvement Attribute

Definition
The following attribute is used to determine if the level of managerial involvement is appropriate
for a particular audit case. Managerial involvement can be appropriate at any time and is
mandatory in certain instances.

Points Considered
NQRS reviewers consider the following points when evaluating managerial involvement during
their reviews.
   •   Group managers should become involved as necessary (or when asked to do so) to avoid
       any unnecessary delays or problems.
   •   Group managers are required to make contact with the taxpayer or representative in all
       cases in which the taxpayer and the examiner could not reach agreement. Contacts can
       be in person or via telephone and should be documented in the case file. A manager can
       delegate this responsibility to a senior agent or examiner as appropriate.
   •   Examiners should not wait for the audit to become a problem before they ask for
       managerial assistance.
   •   Group managers are required to meet with examiners below a certain grade on audit cases
       unless the case is closed within 14 business days after the initial appointment with the
       taxpayer or representative. The purpose of the meeting, also referred to as a
       “concurrence meeting,” is for the group manager to review and concur with the
       examiner’s audit plan.
   •   A discussion with the manager is required when income is understated by more than
       $10,000.




                                                                                          Page 23
               Consistent and Effective Management Involvement Is Needed in
                        Resolving Disagreements Over Audit Results



Reasons for Managerial Involvement
The following reasons are areas where group manager involvement in an audit case is warranted.
The group manager is required to document involvement in the case file.
   •   Procrastination by the taxpayer/representative.
   •   Examiner procrastination.
   •   The taxpayer and the examiner could not reach agreement.
   •   High time was charged to the case or the case is taking a long time to complete.
   •   Fast track mediation is offered to the taxpayer.
   •   A concurrence meeting is required.
   •   Income is understated by more than $10,000.
   •   Other (for example, determining whether or not to bypass an uncooperative
       representative and contact the taxpayer directly).




                                                                                          Page 24
   Consistent and Effective Management Involvement Is Needed in
            Resolving Disagreements Over Audit Results



                                                  Appendix VII

Management’s Response to the Draft Report




                                                          Page 25
Consistent and Effective Management Involvement Is Needed in
         Resolving Disagreements Over Audit Results




                                                       Page 26
Consistent and Effective Management Involvement Is Needed in
         Resolving Disagreements Over Audit Results




                                                       Page 27
